APPENDIX

23092.3

TABLE OF CONTENTS
Appendix A:
Appendix B:
Appendix C:

23092.3

Court of appeals opinion,
September 15, 2020 ................................. 1a
District court order and opinion,
June 26, 2019.......................................... 11a
Statutory provisions .............................. 18a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-30766
DENISE A. BADGEROW,
Plaintiff-Appellant,
v.
GREG WALTERS; THOMAS MEYER; RAY
TROSCLAIR,
Defendants-Appellees.
Filed: September 15, 2020
Appeal from the United States District Court
for the Eastern District of Louisiana
Before JOLLY, GRAVES, and DUNCAN,
Circuit Judges.
OPINION
E. GRADY JOLLY, Circuit Judge:
A panel of arbitrators issued an arbitration award dismissing all of the plaintiff’s claims against Ameriprise Financial Services, Inc. (Ameriprise) and three of its franchise advisors. The plaintiff then filed a petition in Louisiana state court to vacate that arbitration award, as to
(1a)

2a
certain defendant parties. The defendants in the Louisiana state-court proceeding removed the action to vacate
to federal court. The plaintiff moved to remand, asserting
that the federal court lacked subject-matter jurisdiction
over the petition to vacate. The district court held that it
did have subject-matter jurisdiction over the petition to
vacate and thus denied remand. The district court, exercising that jurisdiction, then ruled on the removed petition to vacate, denying the plaintiff’s claims with prejudice, the merits of which are not appealed. This appeal
followed, appealing only the jurisdiction of the federal
court over the petition to vacate.
We hold that the district court had subject-matter jurisdiction over the plaintiff’s petition to vacate the arbitration award and thus correctly denied remand. Accordingly, we affirm the judgment of the district court.
I.
The background to the underlying employment dispute in this case is more fully laid out in our opinion in the
related case Badgerow v. REJ Properties Inc., No. 1930584. In this separate case, we set out here only the procedural history relevant to the jurisdictional question implicated in this appeal.
Denise Badgerow was employed as an associate financial advisor by REJ Properties, Inc. (REJ), a Louisiana
corporation whose three principals (collectively, “the
Principals”) were “independent franchise advisors” for
Ameriprise. 1 She was employed at REJ from January
2014 until July 2016, when she was terminated.
1
The three principals of REJ were Thomas Meyer, Ray Trosclair,
and Greg Walters.

3a
During her employment with REJ, Badgerow signed
an agreement to arbitrate any disputes that may arise between her and “Ameriprise Financial or its Affiliates.”
This agreement required her to arbitrate all claims
against the Principals, who were all Ameriprise affiliates.
After her termination, Badgerow initiated an arbitration
proceeding against the three principals before an arbitration panel of the Financial Industry Regulatory Authority (FINRA). Later, after Ameriprise successfully moved
to compel arbitration in a separate federal lawsuit,
Badgerow added a declaratory judgment claim against
Ameriprise to the FINRA arbitration.
In the FINRA arbitration, Badgerow sought damages from the Principals for tortious interference of contract and for a violation of Louisiana’s “whistleblower”
law. Her declaratory judgment claim against Ameriprise
sought to hold Ameriprise jointly liable for the alleged
discriminatory conduct of the Principals and REJ. In December 2018, the FINRA arbitration panel issued an
award dismissing all of Badgerow’s claims against both
the Principals and Ameriprise with prejudice.
In May 2019, Badgerow brought a new action in Louisiana state court—a petition to vacate the FINRA arbitrators’ award dismissing her claims against the Principals. She alleged that the FINRA arbitrators’ dismissal
of the whistleblower claim was obtained by fraud committed by the Principals on the FINRA arbitrators, and that
this fraud required vacatur of the FINRA panel’s dismissal of all her claims against the Principals. In her petition
to vacate, Badgerow named only the Principals as defendants. The Principals removed the Louisiana action to vacate to the federal court of the Eastern District of Louisiana. Badgerow filed a motion to remand, asserting the

4a
lack of federal subject-matter jurisdiction. The Principals
filed their own motion to confirm the FINRA arbitration
award.
The district court held that it had federal subject-matter jurisdiction over Badgerow’s petition to vacate and
thus denied remand to Louisiana state court. Ruling on
the substance of the petition, the court held that no fraud
had been perpetrated by the Principals on the FINRA
arbitrators and therefore denied vacatur of the FINRA
arbitration dismissal award. The court also confirmed the
FINRA arbitration dismissal award with respect to all
parties. Badgerow has timely appealed the denial of her
motion to remand.
II.
A.
On appeal, Badgerow, we repeat, challenges only the
finding of federal subject-matter jurisdiction over her petition to vacate and the denial of remand, not, in any instance, the merits of the confirmation of the FINRA arbitration dismissal award, nor the dismissal on the merits
of the removed petition to vacate. Stated differently, the
only issue for our review is whether the district court
properly found that it had jurisdiction to rule on the merits of the removed petition to vacate and properly denied
remand.
“[T]he proper standard of review of a district court’s
denial of a motion to remand is de novo.” Allen v.
Walmart Stores, L.L.C., 907 F.3d 170, 182 (5th Cir. 2018).
B.
We start with the basics. The federal removal statute
requires, among other things, that a removed case must

5a
be a civil action “of which the district courts of the United
States have original jurisdiction.” 28 U.S.C. § 1441(a).
When the action at issue is one brought under the Federal Arbitration Act (FAA), analyzing whether the district courts would have original jurisdiction over the action can become a nuanced question. 2
In Vaden v. Discover Bank, 556 U.S. 49 (2009), the Supreme Court adopted the so-called “look-through” analysis for determining federal jurisdiction in actions to compel arbitration under section 4 of the FAA. Although the
instant proceeding is a petition to vacate under FAA section 10, our court has held that “motions brought under
Badgerow notes that she brought her petition to vacate in state court
under the Louisiana Arbitration Law, not the Federal Arbitration
Act. But she presents no argument as to how the jurisdictional analysis would differ if we were to apply the Louisiana Arbitration Law
rather than the FAA. In any event, the arbitration agreement between Badgerow and Ameriprise that covers this dispute explicitly
states that it is “covered and enforceable under the terms of the Federal Arbitration Act.” This arbitration agreement covers disputes between Badgerow and Ameriprise as well as disputes between
Badgerow and the Principals, who are franchisees of Ameriprise.
Furthermore, the First Circuit has held that “where the FAA applies,
it may be displaced by state law (if at all) only if the parties have so
agreed explicitly.” Ortiz-Espinosa v. BBVA Sec. of Puerto Rico, Inc.,
852 F.3d 36, 42 (1st Cir. 2017) (citing Hall St. Assocs. v. Mattel, Inc.,
552 U.S. 576, 590 (2008)). Here, not only does the agreement lack an
explicit agreement to invoke the Louisiana Arbitration Law, it in fact
contains an agreement to apply the FAA. And finally, even if the Louisiana Arbitration Law were to apply, “Louisiana courts look to federal law in interpreting the Louisiana Arbitration Law because it is
virtually identical to the United States Arbitration Act . . . .” Chevron
Phillips Chem. Co., LP v. Sulzer Chemtech USA, Inc., 831 So. 2d 474,
476 (La. App. 2002). We will therefore treat the petition as one
brought under FAA section 10, the FAA equivalent of the Louisiana
Arbitration Law provision Badgerow seeks to invoke.

2

6a
sections 9, 10, and 11 [of the FAA], each of which provides
the ability to seek a different remedy in district court following an arbitration award, are subject to the lookthrough approach endorsed in Vaden.” Quezada v.
Bechtel OG & C Constr. Servs., Inc., 946 F.3d 837, 843
(5th Cir. 2020). Under this analysis, “a federal court
should determine its jurisdiction by ‘looking through’ [an
FAA] petition to the parties’ underlying substantive controversy.” Vaden, 556 U.S. at 62. If “looking through” to
the claims involved in the underlying dispute (in this case,
the claims brought in the FINRA arbitration proceeding)
shows that the dispute itself (i.e. the dispute that was presented to the FINRA arbitrators) could have been
brought in federal court, then federal jurisdiction lies
over the FAA petition. Id.
III.
A.
The district court’s application of the look-through
analysis proceeded in the following steps: (1) Federal jurisdiction exists over the petition to vacate if at least one
of Badgerow’s claims in the FINRA arbitration was predicated on federal law; (2) Badgerow’s joint-employer
claim against Ameriprise in the FINRA arbitration was
predicated on federal employment law; (3) The joint-employer claim against Ameriprise in the FINRA arbitration may confer federal jurisdiction, even though the dismissal of that claim is not a dismissal that Badgerow
seeks to vacate with her petition to vacate; and (4) Federal jurisdiction therefore exists over the petition to vacate because of the federal claim against Ameriprise in
the FINRA arbitration.

7a
On appeal, Badgerow argues that the third step of the
analysis was erroneous because only claims in the
FINRA arbitration that were made against the Principals, the defendants in the petition to vacate, may be considered for the purposes of determining federal jurisdiction over the petition. She thus argues that because she
does not seek to vacate the FINRA arbitrators’ dismissal
of her claim against Ameriprise and has not named
Ameriprise as a defendant in this action, the claim against
Ameriprise in the FINRA arbitration cannot be considered in the look-through analysis. We next move to the
merits of this objection. 3
B.
Badgerow argues that by not naming Ameriprise as a
defendant in her state-court action to vacate, and by not
challenging the FINRA panel’s dismissal of her claim
3
Badgerow also argues that the second step of the court’s analysis,
i.e. that a federal claim is presented, was wrong because the jointemployer claim against Ameriprise in the FINRA arbitration did not
arise under federal law and thus cannot confer federal jurisdiction.
But Badgerow asserted in the FINRA arbitration that “Ameriprise
tacitly participated in all the conduct Ms. Badgerow alleges herein
and in the Federal Complaint with regard to discrimination and other
employment issues described herein.” Badgerow here refers to her
complaint in a separate federal discrimination suit, where Badgerow
brought several claims of Title VII liability against REJ. Thus,
Badgerow sought a declaratory judgment establishing that
Ameriprise was a joint employer with REJ, which would make
Ameriprise liable for any injuries inflicted on Badgerow by REJ in
violation of federal civil rights law. Adjudicating that claim requires
applying Title VII (specifically the four factors laid out in Trevino v.
Celanese Corp., 701 F.2d 397, 403–04 (5th Cir. 1983)) and thus arises
under federal law. The district court plainly was correct in finding
that Badgerow’s claim against Ameriprise in the FINRA arbitration
was a federal-law claim.

8a
against Ameriprise, she has disqualified her FINRA arbitration claim against Ameriprise as a potential source
of federal jurisdiction over her petition to vacate. As
Badgerow accurately notes, “the language in Vaden specifically requires looking through to the underlying controversy ‘between the parties.’” The only parties to this
case are Badgerow and the Principals, not Ameriprise.
Badgerow thus argues that the look-through analysis
“should only look at [the] controversy ‘between the parties’ to her action to vacate, and not the claims made in
the arbitration against a third-party Ameriprise.” The
district court rejected this argument, holding that
“Badgerow cannot deprive the Court of subject matter
jurisdiction over an action to vacate the award by stripping off a single state law claim [i.e. the claim against the
Principals] as a basis for attacking the award.”
A careful reading of Vaden demonstrates that the district court’s approach was correct. Vaden tells us that federal jurisdiction lies over an FAA petition “if, ‘save for’
the [arbitration] agreement, the entire, actual ‘controversy between the parties,’ as they have framed it, could
be litigated in federal court.” Vaden, 556 U.S. at 66 (citation omitted). Vaden emphasizes that our view of the “actual controversy between the parties” should not be too
narrow. “The relevant question is whether the whole controversy between the parties—not just a piece broken off
from that controversy—is one over which the federal
courts would have jurisdiction.” Id. at 67.
So we turn to engage Vaden’s look-through analysis
to assess whether, “save for the arbitration agreement,”
a federal court would have had jurisdiction over an action
raising the same claims against the Principals that

9a
Badgerow brought in the FINRA arbitration proceeding—namely tortious interference and Louisiana “whistleblower”—the dismissal of which she now seeks to vacate.
Our look-through analysis here shows that Badgerow’s claims against Ameriprise and the Principals all
arose from the same common nucleus of operative fact,
namely her employment claims of unfair treatment and
discriminatory conduct while working at REJ, which
claims include her state-law claims of interference of her
employment contract and her whistleblower claims, the
subject of her Louisiana motion to vacate. And, in an action arising out of this “whole controversy”—i.e. this
“full-bodied controversy,” Vaden, 556 U.S. at 68 n.16—
the federal-law claim against Ameriprise would have
been sufficient for federal jurisdiction to bestow its adjudicative powers over Badgerow’s state-law claims against
the Principals under supplemental jurisdiction principles.
See 28 U.S.C. § 1367(a).
We thus hold that, applying the look-through analysis,
the district court correctly found that the federal claim
against Ameriprise in the FINRA arbitration proceeding
meant that there was federal subject-matter jurisdiction
over the removed petition to vacate the FINRA arbitration dismissal award. The district court therefore correctly denied Badgerow’s motion to remand the action to
vacate to Louisiana state court.
IV.
In this opinion, we have held that the district court
had jurisdiction over Badgerow’s petition to vacate, which
was filed in, and removed from, the Louisiana state court.
To resolve that question, we have first acknowledged that

10a
we are bound by our court’s Quezada decision to apply
the look-through analysis as defined by the Supreme
Court in Vaden. Applying the look-through analysis, we
have held, first, that the district court correctly found
that Badgerow’s Title VII declaratory judgment claim
against Ameriprise in the FINRA arbitration was a federal-law claim. We have held, second, that all of
Badgerow’s claims against the Principals and Ameriprise
in the FINRA arbitration arose from the same common
nucleus of operative fact, and that under the principle of
supplemental jurisdiction, federal jurisdiction obtains
over Badgerow’s state-law tortious interference and
whistleblower claims. The district court therefore
properly held that Badgerow’s federal claim against
Ameriprise in the FINRA arbitration invested federal jurisdiction over Badgerow’s Louisiana petition to vacate
the FINRA arbitration award as to the Principals. Because there was federal jurisdiction over the removed petition to vacate, denial of remand back to the Louisiana
state court was proper.
We therefore AFFIRM the denial of remand. Since
Badgerow does not challenge the merits of the district
court’s order denying vacatur, confirming the FINRA arbitration award dismissing the claims against the Principals, and dismissing the case in its entirety with prejudice, the judgment of the district court is, in all respects,
AFFIRMED.

11a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF LOUISIANA
CIVIL ACTION NO. 19-10353
SECTION: “A” (2)
DENISE A. BADGEROW,
Plaintiff
v.
GREG WALTERS, ET AL.,
Defendants
Filed: June 26, 2019
ORDER AND REASONS
Before JAY C. ZAINEY, United States District Judge.
The following motions are before the Court: Motion
to Remand to State Court (Rec. Doc. 15) filed by Plaintiff, Denise Badgerow; Motion to Confirm Arbitration
Award (Rec. Doc. 5) filed by Defendants, Greg Walters,
Thomas Meyer, and Ray Trosclair. Both motions are opposed. The motions, noticed for submission on June 12,
2019, are before the Court on the briefs without oral argument.

12a
This matter is related to Civil Action 17-9492,
Badgerow versus REJ Properties, Inc. d/b/a Walters,
Meyer, Trosclair & Associates (“WMT”). 1
In that related case, on January 10, 2018, the Court
entered its Order and Reasons staying all claims against
Ameriprise pending FINRA arbitration. (Rec. Doc. 47).
The principals of WMT—Greg Walters, Thomas Meyer,
and Ray Trosclair—were not parties to Civil Action 179492 but they were parties to the FINRA arbitration. On
December 28, 2018, the FINRA arbitrators issued their
award which dismissed all of Badgerow’s claims against
Ameriprise, Thomas Meyer, Ray Trosclair, and Gregory
Walters with prejudice. (Rec. Doc. 5-2).
On May 29, 2019, the Court entered an extensive opinion addressing Badgerow’s discrimination, Equal Pay
Act, and breach of contract claims against WMT d/b/a
REJ Properties, Inc. (Rec. Doc. 159). A final judgment
was entered in favor of that defendant dismissing all
claims with prejudice.
On June 12, 2019, the Court entered an Order and
Reasons confirming the arbitration award without qualification on Ameriprise’s motion, and in doing so the Court
analyzed and rejected Badgerow’s allegation of fraud

Throughout this Order and Reasons the Court will assume the
reader’s familiarity with the prior opinions entered in Civil Action 179492.

1

13a
with respect to the award. (Rec. Doc. 161). A final judgment was entered in favor of Ameriprise and against
Badgerow based on the arbitration award. 2
Having obtained no relief in either the arbitration or
in this Court, which was Badgerow’s chosen forum in 2017
when she first filed suit, Badgerow moved to the state
courts. She filed a lawsuit in Lafourche Parish and a lawsuit in Orleans Parish. Defendants Walters, Meyer, and
Trosclair (hereinafter collectively “the Principals”) removed the latter action to this Court and it has been designated as Civil Action 19-10353, the captioned matter.
Civil Action 19-10353 is a petition to vacate the arbitration award that this Court has already confirmed, on
the basis of fraud allegations that this Court has already
determined to be legally frivolous. (17-9492-Rec. Doc.
161). Once the case was removed the Principals moved to
confirm the arbitration award issued in their favor.
Badgerow then moved to remand the case to state court.
Given that the Court has already considered and rejected Badgerow’s fraud challenge to the arbitration
award, 3 the sole question before the Court is whether it
has subject matter jurisdiction over the removed action
so as to grant the Principals’ motion to confirm the award
Even though the award was confirmed without qualification, and
even though the principals were parties to the arbitration and the favorable award, the Court could not enter a judgment in their favor
because they were not parties to Civil Action 17-9492.
2

In fact, as the Court has already pointed out on the record, the Court
reviewed and considered Badgerow’s extensive briefing in this action
regarding her fraud challenge to the award when considering
Ameriprise’s motion to confirm the award. (17-9492-Rec. Doc. 161 at
5 n.6).
3

14a
and enter a final judgment in their favor. Both parties
have provided extensive briefing in conjunction with
Badgerow’s motion to remand the case to state court.
Badgerow’s position is straightforward: She asserts that
under the well-pleaded complaint rule a federal court
lacks jurisdiction over her petition to vacate because it
raises only state law issues. After all, the fraud allegations that Badgerow raises in resisting the award are directed solely at her state law whistleblower claim. The
Principals’ position is likewise straightforward: They contend that federal question jurisdiction applies because
the Louisiana whistleblower claim was premised on violations of federal law, and that the Court should apply the
“look through” approach promulgated in Vaden v. Discover Bank, 556 U.S. 49 (2009), to essentially pierce
Badgerow’s artfully pleaded petition. 4
Vaden v. Discover Bank addressed inter alia the
question of subject matter jurisdiction when a party
moves to compel arbitration under § 4 of the Federal Arbitration Act, which in and of itself does not confer jurisdiction—an independent basis for federal subject matter
jurisdiction must exist. The Court held that a federal
court may “look through” a § 4 petition to determine
whether it is predicated on an action that arises under
federal law. Vaden, 556 U.S. at 53, 62.

4
What the Court cannot do is exercise jurisdiction based on the All
Writs Act, 28 U.S.C. § 1651(a), because it does not confer subject matter jurisdiction. See Syngenta Crop Prot., Inc. v. Henson, 567 U.S. 28
(2002). Likewise, the Court cannot assume jurisdiction in order to
avoid the substantial waste and cost of involving another court in this
matter at this juncture or in order to punish Badgerow for forum
shopping.

15a
In the aftermath of Vaden, courts have grappled with
whether the “look through” approach applies to § 10 motions to vacate. Courts declining to extend Vaden to § 10
motions to vacate have pointed out that Vaden’s reasoning was grounded on specific text in § 4 that § 10 that does
not contain. See, e.g., Goldman v. Citigroup Global Mkts.,
Inc., 834 F.3d 242 (3rd Cir. 2016). Meanwhile in those circuits where Vaden has been extended to § 10 motions to
vacate, the courts have provided persuasive reasoning explaining why the textual differences between the Federal
Arbitration Act’s § 4 and § 10 do not militate against recognizing consistent jurisdictional principles for both sections. See, e.g., Ortiz-Espinosa v. BBVA Securities, Inc.,
852 F.3d 36 (1st Cir. 2017); Doscher v. Sea Port Grp. Securities, LLC, 832 F.3d 372 (2nd Cir. 2016).
The Fifth Circuit has not yet entered into the fray of
this circuit split to determine whether the Vaden look
through approach applies to § 10 motions to vacate. This
Court will err on the side of assuming that the Fifth Circuit would apply the same jurisdictional standards to a
motion to vacate an arbitration award that would apply to
a motion to compel arbitration. 5
That said, Badgerow filed suit in state court relying
on La. R.S. § 9:4210 to vacate the award. 6 Badgerow’s position is that the petition only involves state law because
The Court errs on the side of assuming that the Vaden look through
approach could apply to a petition to vacate because Badgerow can
raise this issue on appeal but if the Court remands this matter for lack
of subject matter jurisdiction then the Principals will have no appeal
option.

5

Section 4210 is part of Louisiana’s Binding Arbitration Law and it
tracks the vacatur language of § 10 of the FAA. The arbitration agreements at issue state that they are covered by the terms of the FAA.
6

16a
she only seeks to vacate the award with respect to the
state law whistleblower claim. To the contrary, the award
was based on state law as well as federal law because
Badgerow included as part of the arbitration her joint
employer claims that were grounded on federal employment law. This Court is persuaded that Badgerow cannot
deprive the Court of subject matter jurisdiction over an
action to vacate the award by stripping off a single state
law claim as a basis for attacking the award. 7 Because the
award itself included federal claims, the Court is persuaded that federal question jurisdiction applies notwithstanding the artfully pleaded petition. Therefore, the motion to remand is denied.
For the reason given in Civil Action 17-9492, the Principals’ motion to confirm the award is granted.
Accordingly;
IT IS ORDERED that the Motion to Remand to
State Court (Rec. Doc. 15) filed by Plaintiff, Denise
Badgerow is DENIED.
IT IS FURTHER ORDERED that the Motion to
Confirm Arbitration Award (Rec. Doc. 5) filed by De-

(17-9492-Rec. Doc. 26-2 at 5; Rec. Doc. 26-3 at 5). But because the
FAA itself confers no jurisdiction on a federal court, the Court attaches no jurisdictional significance to Badgerow’s avoidance of the
FAA in her state court pleading.
Of course, as the Principals point out, even as to the state law whistleblower claim Badgerow based it on an alleged violation of federal
law. The Court does not determine whether the issues of federal law
were substantial enough to confer jurisdiction, see Venable v. La.
Workers’ Comp. Corp., 740 F.3d 937 (5th Cir. 2013), because the award
itself included federal claims.

7

17a
fendants, Greg Walters, Thomas Meyer, and Ray Trosclair is GRANTED. A final judgment will be entered in
favor of these defendants, confirming the arbitration
award and dismissing this action to vacate and all claims
against them with prejudice.
June 26, 2019
/s/ Jay C. Zainey
JAY C. ZAINEY
UNITED STATES DISTRICT JUDGE

18a
APPENDIX C
1. Section 4 of the Federal Arbitration Act, 9 U.S.C. 4,
provides:
Failure to arbitrate under agreement; petition to
United States court having jurisdiction for order
to compel arbitration; notice and service thereof;
hearing and determination
A party aggrieved by the alleged failure, neglect, or
refusal of another to arbitrate under a written agreement
for arbitration may petition any United States district
court which, save for such agreement, would have jurisdiction under title 28, in a civil action or in admiralty of
the subject matter of a suit arising out of the controversy
between the parties, for an order directing that such arbitration proceed in the manner provided for in such
agreement. Five days’ notice in writing of such application shall be served upon the party in default. Service
thereof shall be made in the manner provided by the Federal Rules of Civil Procedure. The court shall hear the
parties, and upon being satisfied that the making of the
agreement for arbitration or the failure to comply therewith is not in issue, the court shall make an order directing the parties to proceed to arbitration in accordance
with the terms of the agreement. The hearing and proceedings, under such agreement, shall be within the district in which the petition for an order directing such arbitration is filed. If the making of the arbitration agreement or the failure, neglect, or refusal to perform the
same be in issue, the court shall proceed summarily to the
trial thereof. If no jury trial be demanded by the party
alleged to be in default, or if the matter in dispute is

19a
within admiralty jurisdiction, the court shall hear and determine such issue. Where such an issue is raised, the
party alleged to be in default may, except in cases of admiralty, on or before the return day of the notice of application, demand a jury trial of such issue, and upon such
demand the court shall make an order referring the issue
or issues to a jury in the manner provided by the Federal
Rules of Civil Procedure, or may specially call a jury for
that purpose. If the jury find that no agreement in writing
for arbitration was made or that there is no default in proceeding thereunder, the proceeding shall be dismissed. If
the jury find that an agreement for arbitration was made
in writing and that there is a default in proceeding thereunder, the court shall make an order summarily directing
the parties to proceed with the arbitration in accordance
with the terms thereof.
2. Section 9 of the Federal Arbitration Act, 9 U.S.C. 9,
provides:
Award of arbitrators; confirmation; jurisdiction;
procedure
If the parties in their agreement have agreed that a
judgment of the court shall be entered upon the award
made pursuant to the arbitration, and shall specify the
court, then at any time within one year after the award is
made any party to the arbitration may apply to the court
so specified for an order confirming the award, and thereupon the court must grant such an order unless the award
is vacated, modified, or corrected as prescribed in sections 10 and 11 of this title. If no court is specified in the
agreement of the parties, then such application may be
made to the United States court in and for the district

20a
within which such award was made. Notice of the application shall be served upon the adverse party, and thereupon the court shall have jurisdiction of such party as
though he had appeared generally in the proceeding. If
the adverse party is a resident of the district within which
the award was made, such service shall be made upon the
adverse party or his attorney as prescribed by law for
service of notice of motion in an action in the same court.
If the adverse party shall be a nonresident, then the notice of the application shall be served by the marshal of
any district within which the adverse party may be found
in like manner as other process of the court.
3. Section 10 of the Federal Arbitration Act, 9 U.S.C. 10,
provides:
Same; vacation; grounds; rehearing
(a) In any of the following cases the United States
court in and for the district wherein the award was made
may make an order vacating the award upon the application of any party to the arbitration—
(1) where the award was procured by corruption,
fraud, or undue means;
(2) where there was evident partiality or corruption in the arbitrators, or either of them;
(3) where the arbitrators were guilty of misconduct in refusing to postpone the hearing, upon sufficient cause shown, or in refusing to hear evidence pertinent and material to the controversy; or of any other
misbehavior by which the rights of any party have
been prejudiced; or

21a
(4) where the arbitrators exceeded their powers,
or so imperfectly executed them that a mutual, final,
and definite award upon the subject matter submitted
was not made.
(b) If an award is vacated and the time within which
the agreement required the award to be made has not expired, the court may, in its discretion, direct a rehearing
by the arbitrators.
(c) The United States district court for the district
wherein an award was made that was issued pursuant to
section 580 of title 5 may make an order vacating the
award upon the application of a person, other than a party
to the arbitration, who is adversely affected or aggrieved
by the award, if the use of arbitration or the award is
clearly inconsistent with the factors set forth in section
572 of title 5.
4. Section 11 of the Federal Arbitration Act, 9 U.S.C. 11,
provides:
Same; modification or correction; grounds; order
In either of the following cases the United States
court in and for the district wherein the award was made
may make an order modifying or correcting the award
upon the application of any party to the arbitration—
(a) Where there was an evident material miscalculation of figures or an evident material mistake in the description of any person, thing, or property referred to in
the award.

22a
(b) Where the arbitrators have awarded upon a matter not submitted to them, unless it is a matter not affecting the merits of the decision upon the matter submitted.
(c) Where the award is imperfect in matter of form not
affecting the merits of the controversy.
The order may modify and correct the award, so as to
effect the intent thereof and promote justice between the
parties.

